                       0


                ACQUISITION   OF MEDICAL ITEMS



Report No. 98-154                            June 15, 1998




              Office of the Inspector General
                  Department of Defense
  Additional Information and Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
  General, DOD, Home Page at: www.dodig.osd.mil.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support
  Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
  and requests can also be mailed to:
                                                                                      I
                     OAIG-AUD (ATTN: APTS Audit Suggestions)
                     Inspector General, Department of Defense
                     400 Army Navy Drive (Room 801)
                     Arlington, Virginia 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to
  Hotline@DODIG.OSD.MIL; or by writing to the Defense Hotline, The
  Pentagon, Washington, D.C. 20301-1900. The identity of each writer and caller
  is fully protected.




Acronyms

DAPA                Distribution and Pricing Agreement
DBPA                Decentralized Blanket Purchasing Agreement
DLA                 Defense Logistics Agency
DSCP                Defense Supply Center Philadelphia
DVA                 Department of Veterans Affairs
FSS                 Federal Supply Schedule
GSA                 General Services Administration
                    Medical Treatment Facility
                    National Drug Code
                               INSPECTOR GENERAL
                              DEPAFWMENT OF DEFENSE
                                  4OOARMYNAVYDRM3
                              ARLINGTON,VIRGINIA 22202-2884



                                                                          June 15, 1998




MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION
               AND TECHNOLOGY

SUBJECT: Audit Report on the Acquisition of Medical Items (Report No. 98-154)


        We are providing this report for your review and comment. This report is the
fourth in a series of reports on dual management of commercially available items. This
audit was requested by the Assistant Deputy Under Secretary of Defense (Materiel and
Distribution Management). We considered comments from the Acting Principal
Assistant Deputy Under Secretary of Defense (Logistics) on a draft of this report in
preparing the final report.

       DOD Directive 7650.3 requires that all recommendations be resolved promptly.
Therefore, we request that the Acting Principal Assistant Deputy provide additional
comments on the recommendation and potential monetary benefits by August 14, 1998.

       We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. Tilghman Schraden at (703) 604-9186 (DSN 664-9186),
e-mail tschraden@dodig.osd.mil, or Mr. Thomas Kelly at (215) 737-3886 (DSN
444-3886), e-mail tkelly@dodig.osd. mil. See Appendix F for the report distribution.
The audit team members are listed inside the back cover.




                                        Robert f Lieberman
                                     Assistant Inspector General
                                             for Auditing
                             Offke of the Inspector General, DOD
Report No. 98-154                                                        June 15, 1998
 (Project No. 6LD-5044.01)

                               Acquisition of Medical Items

                                    Executive Summary

Introduction. This audit was requested by the Assistant Deputy Under Secretary of
Defense (Materiel and Distribution Management). This report is the fourth in a series
of reports on dual management of commercially available items by the Defense
Logistics Agency @LA) and other Government organizations. Medical items comprise
11 Federal supply classes but are generally managed as 3 categories: pharmaceuticals,
medical and surgical sup lies, and equipment. For FY 1997, DLA centrally supported
the acquisition of about P 1 billion of medical items for DOD medical treatment
facilities; the medical treatment facilities acquired many more millions of dollars of
medical items locally by contract and Government credit card. The Department of
Veterans Affairs contracted for about $2.4 billion of medical items in support of its
medical facilities and other customers.

Audit Objectives. The audit objectives were to determine the extent of products
available through non-Defense Federal organizations for which DOD also operated
central procurement programs and to evaluate whether the DOD programs were
providing services without added benefit to DOD. The specific objective of this audit
was to evaluate the cost-effectiveness of DLA centrally acquiring medical items
concurrent with the Department of Veterans Affairs. We also reviewed the adequacy
of the management control program applicable to the stated objectives.

Audit Results.     DLA acquisition resources were expended unnecessarily to centrally
support the acquisition of commercially available medical items for DOD medical
treatment facilities. By using the acquisition services of the Department of Veterans
Affairs for those medical items that are not military unique as well as reducing its
central procurement operations and realigning personnel acquisition resources, DOD
could better use an estimated $48 million over the FY 1999 through FY 2004 Future
Years Defense Plan. More benefits could accrue from paying lower prices for medical
items. See Part I for a discussion of the audit results.

The management controls we reviewed were effective in that no material management
control weakness was identified. See Appendix A for details on the management
control program.

Recommendation. We recommend that the Under Secretary of Defense for
Acquisition and Technology transfer acquisition responsibility to the Department of
Veterans Affairs for all medical items except those categorized as military unique and
realign acquisition personnel resources accordingly.
Management Comments. The Acting Principal Assistant Deputy Under Secretary of
Defense (Logistics) partially concurred with the recommendation. DLA will form a
team with the Department of Veterans Affairs to eliminate duplication where possible.
Additionally, DLA will consider alternatives such as lowering surcharges or imposing a
flat fee in cases where the surcharge on purchases is made through Department of
Veterans Affairs contracts. Part I summarizes management comments and Part III
contains the complete text of those comments.

Audit Response. Comments from the Acting Principal Assistant Deputy were not
fully responsive. With the intention of eliminating duplication, DLA and the
Department of Veterans Affairs have been the focus of several initiatives that have
resulted in similar cooperative arrangements between the Departments over the last
20 years. Yet, the duplication in acquiring medical items has persisted. Consequently,
the alternatives proposed by the Acting Principal Assistant Deputy offer limited
prospect for eliminating duplication in acquiring medical items and realizing potential
monetary benefits. We request that the Acting Principal Assistant Deputy reconsider
his position and provide comments on the final report by August 14, 1998.




                                           ii
Table of Contents
Executive Summary
Part I - Audit Results
      Audit Background                                                2
      Audit Objectives                                                4
      Acquisition Resources                                           5

Part II - Additional Information
      Appendix A. Audit Process
        Scope and Methodology                                        18
        Management Control Program                                   20
      Appendix B. Summary of Prior Coverage                          21
      Appendix C. Federal Supply Group 65                            23
      Appendix D. Significant Initiatives to Eliminate Duplication   24
      Appendix E. Medical Treatment Facilities Reviewed              26
      Appendix F. Report Distribution                                27

Part III - Management         Comments
      Acting Principal Assistant Deputy Under Secretary of Defense
         (Logistics) Comments                                        30
Part I - Audit Results
Audit Background
    The Under Secretary of Defense for Acquisition and Technology is the principal
    staff assistant and advisor to the Secretary of Defense for all matters relating to
    acquisition. This audit was requested by the Assistant Deputy Under Secretary
    of Defense (Materiel and Distribution Management), a subordinate element of
    the Under Secretary. The Assistant Deputy was concerned that products
    available through non-Defense Federal organizations were being procured by
    the Defense Logistics Agency (DLA) without added benefit to DOD. This
    report is the fourth in a series of reports on dual management of commercially
    available items. Medical items acquired by the Government are included in
    Federal Supply Group 65. See Appendix C for a description of the 11 classes
    in Federal Supply Group 65. In FY 1997, DLA centrally supported DOD
    medical treatment facilities (MTFs) in the acquisition of about $1 billion of
    medical items; the MTFs (hospitals and clinics) acquired many more millions of
    dollars worth of medical items locally by contract and Government credit card.
    The Department of Veterans Affairs contracted for about $2.4 billion of medical
    items in support of its medical facilities and other customers in FY 1997.

    Supply Consolidation Within Civilian Agencies. Since 1949, the General
    Services Administration (GSA) has had the responsibility to supply personal
    property to all Government organizations. GSA was given the authority to
    direct and manage the Federal Supply Schedule (FSS) Program. The FSS
    Program provides Federal agencies with a simplified process of acquiring
    commonly used supplies and services in varying quantities at lower prices while
    obtaining discounts associated with volume buying. Competitively awarded
    contracts, called FSS contracts and containing instructions for placing delivery
    orders, are made with commercial firms to provide supplies and services at set
    prices for established periods of time. Under the FSS Program, ordering
    agencies issue orders directly to the contractor, receive shipments, pay the
    contractors, and administer individual orders.

    In 1961, GSA began to transfer its responsibility to award FSS contracts for
    medical items to its largest customer, the Veterans Administration, now the
    Department of Veterans Affairs (DVA). The transfer of responsibility from
    GSA to DVA was completed in January 1981. Awards are made by the DVA
    National Acquisition Center in Hines, Illinois. DVA acquisition support for
    medical items has primarily been for its own medical facilities and other civilian
    agencies.

    Under the Veterans Health Care Act of 1992, pharmaceutical manufacturers
    must make their products available through FSS contracts in order to receive
    reimbursement for drugs covered by Medicaid. The Act also requires that
    pharmaceutical manufacturers sell their products to DVA, DOD, the Public
    Health Service, and the Coast Guard at no more than 76 percent of the average
    price they charge non-Federal customers--a level referred to as the Federal
    ceiling price.



                                         2
In addition to FSS contracts, DVA awards decentralized blanket purchasing
agreements (DBPAs) and national contracts to obtain better prices than can be
achieved from FSS contracts. National contracts are awarded to one
manufacturer as a mandatory supplier of a specific item chosen through a
formulary. For its contracting service, DVA assessed its customers a surcharge
of 0.5 percent (it charged higher rates for equipment items) on each sale during
FY 1997.

Supply Consolidation Within DOD. In 1961, DOD established its own central
supply agency, the Defense Supply Agency (now DLA), to eliminate
duplication of supply functions among the Military Departments. The primary
focus of DLA is to support military operations in peace and in war, and to
provide relief efforts during times of national emergency. DLA supports the
Military Departments with medical items through its subordinate agency, the
Defense Supply Center Philadelphia (DSCP), formerly named the Defense
Personnel Support Center, located in Philadelphia, Pennsylvania.

DSCP primarily supports the acquisition of medical items by issuing distribution
and pricing agreements (DAPAs). DAPAs are agreements with suppliers to sell
their products to DSCP customers at a set price for an established period of
time; suppliers can increase the price as often as monthly but can reduce it
anytime. DSCP awards DBPAs and other individual contracts for unique
requirements. For its contracting service during FY 1997, DSCP assessed its
customers a surcharge on each sale: 1.3 percent for DAPA items, 5 percent for
DBPA items, 55 percent for depot items, and 2 percent to 6.7 percent for
equipment.

Initiatives to Eliminate Duplication. Contracting authority for medical items
is essentially vested in two Government agencies: DVA to support civilian
agencies and DLA to support DOD. Over the years, a number of studies and
agreements have been made, as well as directives issued, to eliminate the
inevitable duplication arising from such a dual acquisition arrangement. The
first significant initiative was proclaimed in 1964, when DOD and GSA agreed
to eliminate any unnecessary duplication and overlap within the Government
supply system. The latest initiative was in July 1995, as part of the National
Performance Review. A combined working group of DOD, DVA, and
Government health officials concluded that substantial, increased leverage may
be achieved through a combined purchasing effort by DOD and DVA.
Significant initiatives to eliminate duplication by DOD and DVA are further
discussed in Appendix D.

DOD Acquisition Reform Initiatives. Section 912 of the National Defense
Authorization Act for FY 1998 (Public Law 105-85) requires that DOD reduce
acquisition positions by between 15,000 and 25,000. DOD is expected to
achieve this objective by identifying areas of duplication, overlap, and
redundancy among acquisition organizations. The essence of Public Law
105-85 is stated in the DOD November 1997 reform initiative, “The Business
Strategy for Defense in the 21st Century,” which prescribes that DOD




                                    3
     will streamline organizations to remove redundancy and maximize synergy and
     will reduce excess support structures to free resources and focus on core
     competencies.


Audit Objedtives
     The audit objectives were to determine the extent of products available through
     non-Defense Federal organizations for which DOD also operated central
     procurement programs and to evaluate whether the DOD programs were
     providing services without added benefit to DOD. The specific objective of this
     audit was to evaluate the cost-effectiveness of DLA centrally acquiring medical
     items concurrent with DVA. We also reviewed the adequacy of the
     management control program applicable to the stated objectives. See
     Appendix A for a discussion of the audit scope and methodology, and our
     coverage of the management control program. See Appendix B for a discussion
     of prior coverage.




                                        4
           Acquisition Resources
           DLA acquisition resources were expended unnecessarily to centrally
           support the acquisition of commercially available medical items for DOD
           MTFs. Although DLA was provided acquisition responsibility for
           medical items that were not military unique, DLA was not providing the
           most cost-effective acquisition services. By using the acquisition
           services of DVA for those medical items that are not military unique as
           well as reducing its central procurement operations and realigning
           personnel acquisition resources, DOD could better use an estimated
           $48 million over the FY 1999 through FY 2004 Future Years Defense
           Plan. More benefits could accrue from paying lower prices for medical
           items.


DLA and DVA Acquisition Services

    DLA acquisition services for medical items largely duplicated those provided by
    DVA. DLA essentially used the same acquisition techniques as DVA to engage
    suppliers to provide the same medical products.

    Acquisition Strategies. DLA and DVA used the same acquisition strategies to
    provide customers with most medical items, either through “prime vendors”
    (distributors) or direct delivery from other distributors and manufacturers.
    Within the United States, DLA and DVA engaged at least 13 prime vendors to
    distribute pharmaceuticals, medical and surgical supplies, and small equipment.
    The use of prime vendors and direct delivery is essentially the adoption of
    commercial distribution practices that have been in use for some time by most
    commercial hospitals, clinics, and pharmacies in the United States.

            Prime Vendor. Under the prime vendor process, a single vendor buys
    medical items from a variety of manufacturers and the inventory is stored in
    commercial warehouses. A customer orders the medical items from the prime
    vendor using electronic ordering systems at prices pre-negotiated by either DLA
    or DVA with distributors and manufacturers. The prime vendor ships most
    items to the customer the next day. Prime vendors were engaged by both DLA
    and DVA to manage and distribute many medical items within designated areas
    for a fee. DLA and DVA employed many of the same prime vendors, although
    not for the same areas. Prime vendors are the primary means of delivering
    medical items acquired under DAPAs and most FSS contracts.

            Direct Delivery. Under direct delivery, a prime vendor is not engaged
    and the customer deals directly with the manufacturer. Direct delivery is the
    primary method of delivering medical items acquired under DBPAs, some FSS
    contracts, and equipment contracts.
Acquisition Resources


        The use of prime vendors and direct delivery meant that DLA and DVA no
        longer performed most of the traditional logistics functions in support of
        customers, such as processing requisitions and maintaining on-hand stock.
        DLA and DVA essentially provided only a contracting role. In this role, we
        could discern no major difference between DLA and DVA. Regardless of the
        acquisition instrument employed--whether a DAPA in the case of DLA, a
        supply schedule in the case of DVA, or a DBPA in the case of both DLA and
        DVA--the result was the same: distributors and manufacturers were engaged to
        provide medical items for set prices for given periods of time.

        Commodity Groups. For management purposes, both DLA and DVA grouped
        the 11 medical classes into 3 commodity groups: pharmaceuticals, medical and
        surgical supplies, and equipment. As of September 30, 1997, DLA and DVA
        had acquisition responsibility for line items in the three commodity groups as
        shown in Table 1.

             Table 1. FY 1997 Acquisition Responsibility for Medical Line Items

                                                    Line Items                         Line Items
        Medical Items by                            Acquired                           Acquired
        Commodity Group                             bv DLA                             by DVA

        Pharmaceuticals                                25,102                             21,666
        Medical and surgical
         supplies                                   190,313                      about 200,000
        Equipment                                    selected                    about 18,100
                                                    contracts

          Total                                     215,415                             239,766

        Our analysis of individual items within the three commodity groups showed that
        DLA and DVA engagements were not only with the same distributors and
        manufacturers but often for the same items.

                Pharmaceuticals. DLA and DVA duplication in procuring
        pharmaceuticals was extensive. DLA and DVA each   _- --- engaged medical
                                                                              . _
        manufacturers and distributors to sell more than 20,000 pharmaceutical products
        annually. More than 80 percent of the pharmaceuticals were distributed to DOD
        MTFs through prime vendors. We compared pharmaceutical products offered
        by DLA and DVA that had National Drug Codes (NDCs). ’ The comparison
        matched 15,727 NDCs between the two agencies, which meant they duplicated
        procurement support for 15,727 pharmaceutical products. Another significant
        portion of the pharmaceutical products could not be readily compared because
        the products, such as the containers used for dispensing prescriptions and


’ NDCs are 1 l-digit numbers that identify the manufacturer, the item, the dosage, and the quantity pack
  of a particular pharmaceutical.

                                                   6
                                                              Acquisition Resources


     various over-the-counter cremes and lotions, did not have NDCs. However,
     there were thousands of those items without NDCs, meaning that duplication in
     procuring pharmaceuticals was probably much greater than the 15,727 products
     with matching NDCs.

             Medical and Surgical Supplies. DLA and DVA duplication in
     procuring medical and surgical supplies was significant. As of
     September 30, 1997, DLA and DVA each engaged medical manufacturers and
     distributors to sell from 190,000 to 200,000 line items of medical and surgical
     supplies annually. Medical and surgical supplies are items not categorized as
     pharmaceuticals or investment equipment. Unlike pharmaceuticals, which have
     NDCs, medical and surgical supplies lack uniform product identification codes.
     Without uniform product coding for medical and surgical supplies and a
     complete automated database for all DVA items (only about 40,000 of 200.000
     line items were automated), we could not effectively evaluate the duplication in
     acquiring medical and surgical supplies. However, DLA had tasked a
     contractor in September 1997 to perform an analysis of DLA and DVA medical
     and surgical items. The contractor determined that DLA offered 61.2 percent
     of 37,766 medical and surgical supplies downloaded from the DVA database.

            Equipment. Duplication by DLA and DVA in procuring equipment
    was evident, but the extent of duplication could not be quantified. DLA mostly
    acquired equipment for MTFs by awarding individual contracts, whereas DVA
    awarded FSS contracts for about 18,000 equipment products. DVA did not
    maintain automated records that would enable a detailed comparison.
    Therefore, we judgmentally selected 44 DLA purchases for individual pieces of
    equipment and found that MTFs could have obtained the same equipment
    through DVA FSS contracts in 18 instances. Of the 18 purchases, DLA made
    13 by placing orders on DVA FSS contracts, requiring DOD customers to pay
    the DLA surcharge ranging from 5.9 percent to 6.7 percent in addition to the
    DVA surcharge already included in the FSS contracts.


Military-Unique Items
    Medical items acquired by DLA were predominately not unique to the military
    and were available through DVA. DLA records showed that of the
    215,000 medical items it acquired, less than 0.05 percent (100 items) had a
    military-unique role. Nevertheless, DOD has historically held that maintaining
    its own central procurement capability for medical items was necessary because
    it bought the most medical items and only it could extend services to the
    Military Department supply systems. That DOD rationale may have been valid
    in the past. However, in FY 1997, DVA not only bought more medical line
    items than DOD but expended more than twice the funds on acquiring medical
    items centrally than DOD, as shown in Table 2.




                                         7
Acquisition Resources


               Table 2. FY 1997 DOD and DVA Expenditures for Medical Items

                                              DOD                                 DVA
        Medical Items by                    Expenditures                        Expenditures
        Commoditv Group                       [in millions)                      (in millions)

         Pharmaceuticals                        $750.7                          $1,695.5
         Medical and surgical
          supplies                                119.8                             233.8
         Equipment                                101.8                             454.6
         DBPA                                      67.4                         not reported
          (includes all three
          commodity groups)

          Total                               $1,039.7                          $2,383.9

        Additionally, the compatibility of DLA and the Military Department supply
        systems has much less relevancy in the current logistics of commercially
        available medical items. MTFs seldom use the Military Department supply
        systems for medical items; instead, they deal directly with prime vendors or
        manufacturers or purchase the items locally.


DLA Perspective
        In today’s environment, DLA officials justify their central acquisition capability
        by pointing to the benefits gained from performing a readiness function,
        providing better customer support, and using improved business practices.
        However, the justification for DLA to continue its acquisition services for those
        reasons was not compelling.

        Readiness Function. DLA performed a readiness function for medical items
        that DVA was not capable of, but the function did not necessitate the use of
        DLA acquisition resources. The readiness function involved identifying and
        making provisions for critical items that distributors or manufacturers may
        otherwise not be able to supply in sufficient quantities within predetermined
        time frames. Within DOD, the Military Departments identified less than
        4 percent of the medical items that DLA acquires as critical and appropriate for
        identifying and making readiness provisions2 For those critical items, readiness
        provisions are identified and made by a group of about 60 technicians in the

’ For the preponderance of medical items, the readiness function is not vital because DOD requirements
  in total represent only about 1 percent of the annual sales of manufacturers. Any increase in
  requirements should easily be satisfied within the existing inventory of distributors and the production
  capability of manufacturers. Also, the Military Departments require highly mobile units to keep 10 to
   15 days of medical items on hand in the event of a quick deployment.

                                                    8
                                                               Acauisition Resources


     readiness business unit of the DSCP medical directorate. Separate acquisition
     groups within the medical directorate, with input from the readiness business
     unit, either negotiate surge options with prime vendors or, in some instances,
     actually buy and store items.

     The same service provided by the DSCP acquisition groups could be provided
     by DVA. Although DVA did not have the readiness resources to identify and
     make readiness provisions, it had demonstrated, when called upon, the
     capability to provide the same acquisition services for medical items during a
     national emergency that DSCP had provided to the Military Departments. For
     example, responsible officials at the Army Medical Command told us that DVA
     successfully supported the deployment of Fort Hood units to Kuwait in 1996 by
     exercising surge options in prime vendor contracts for pharmaceuticals.

     Customer Support.     DLA and DVA provided similar customer support in
     terms of the number of different items offered to customers. Both DLA and
     DVA offered MTFs more than 200,000 line items in FY 1997. DVA offered
     its customers about 25,000 items more than DLA. The number of line items
     offered by both DLA and DVA well exceeded the buying trends of the MTFs
     we reviewed. For example, available records at the MTFs showed that no more
     than 15,000 different medical and surgical supplies were acquired during
     FY 1997, including fewer than 5,000 products on a recurring basis.
     Accordingly, the customer support now provided by DLA and required by DOD
     MTFs would appear well within the existing capability of DVA.

     Business Practices. Both DLA and DVA either initiated or adopted
     commercial practices that made contracting for medical items more efficient.
     For example, DVA was the first to introduce the prime vendor concept to its
     customers in FY 1992. In 1997, DLA cut costs by introducing pre-packaged,
     pre-assembled consumable medical supplies designed for a specific medical
     procedure and medical facility. Indeed, DOD logistics and health care officials
     have alluded to us that the business benefits achieved through competition with
     DVA justify continued dual acquisition of medical items. However, the
     efficiencies gained internally from dual acquisition may have been offset by
     higher administrative costs of suppliers and, in turn, increases in medical item
     prices.


Industry Perspective
     Selected manufacturers and prime vendors viewed dual acquisition channels for
     medical items as an inefficient Government operation.

     Manufacturers. Manufacturers were critical of the dual acquisition practiced
     by DLA and DVA. We received 15 responses to 38 questionnaires that we sent
     to high-volume manufacturers that sold medical items to the Government. Of
     the 15 respondents, 11 stated that they had incurred additional administrative
     costs from dealing with multiple Government agencies. The manufacturers
     stated that the additional administrative costs were the result of coping with

                                         9
Acquisition Resources


      different operating systems and regulations, performing duplicative functions,
      and having more paperwork. Some of the specific comments or concerns made
      by manufacturers were:

              “DOD requirements do not mirror commercial market realities or
      practices. ”

             “The FSS Program can do the entire job with a fraction of the hassle.”

             “We see no advantage in duplicate contracts serving one market sector.”

      Prime Vendors. A representative of the Health Industry Distributors
      Association and six prime vendor representatives who we interviewed were
      critical of the dual procurement by DLA and DVA for medical items. All the
      representatives were consistent in their statements citing the needlessness of dual
      acquisition. The representatives stated that the Government’s dual acquisition
      of medical items caused the distributors to incur additional administrative
      expense from bidding multiple contracts and maintaining separate records for
      DLA and DVA.


Customer Perspective

      MTF customers often satisfied their needs for medical items locally and the
      balance of their requirements could be satisfied by either DLA or DVA. MTF
      customers obtained medical items locally through local contracts and
      Government credit cards and centrally through prime vendors and DLA depots.
      To determine the buying methods (locally and centrally) for the different
      categories of medical items, we evaluated nine MTFs that purchased more than
      $274.4 million of medical items in FY 1997. See Appendix E for the
      nine MTFs we evaluated.

              o To obtain pharmaceuticals, six MTFs used DLA prime vendors and
      three used DVA prime vendors. Prime vendors supplied between 81 percent
      and 92 percent of the pharmaceuticals used by the nine MTFs. The balance of
      pharmaceuticals was obtained through local contracts, Government credit cards,
      or DLA depots.

              o To obtain medical and surgical supplies, eight MTFs used DLA prime
      vendors and one had contracted its own prime vendor. However, the prime
      vendors were not the primary source of supply for the MTFs. Prime vendors
      supplied only between 12 percent and 45 percent of the medical and surgical
      supplies used by the MTFs. Based on available records, the nine MTFs
      purchased, on average, at least two-thirds of their medical and surgical supplies
      through local contracts or local purchases using Government credit cards. A
      small amount was also obtained through DLA depots.




                                          10
                                                          Acquisition   Resources


        o To obtain equipment, five MTFs generally satisfied their needs
locally, except for a few specialty buys that were handled by either DLA or
DVA. Of the other four MTFs, one preferred DLA, two preferred DVA, and
one used a mix of DLA, DVA, and local sources.

As a single acquirer of medical items, DVA could have satisfied the central
buying needs of DOD MTFs and often at less cost. The decision to use prime
vendors contracted by either DLA or DVA seemed to be based more on
precedence than on the result of in-depth evaluation. Responsible officials at
the nine MTFs expressed preferences for certain aspects of both DLA and DVA
acquisition services but cited operational requirements and cost as the main
reasons they might use to choose between DLA and DVA acquisition support.

Operational    Requirements.     The most important operational requirement issue
with MTFs was response time in delivering needed products. Responsible
officials at MTFs discounted the issue of readiness, stating that they expected to
transition to mobilization with the same vendors. To measure response time in
delivering needed products, medical contracts require prime vendors to meet
“fill rates. ” As such, the salient factor in satisfying the operational
requirements of MTFs was not who engaged the prime vendor but whether the
prime vendor could deliver the needed products within an established time
frame. At the nine MTFs we reviewed, the fill rates for pharmaceuticals were
consistently 95 percent or better regardless of whether DLA or DVA contracted
the prime vendor. From the standpoint of contracting a prime vendor to deliver
items to MTFs, both DLA and DVA did the job equally well.

Cost of Medical Items.    Although cost of medical items was the second most
important logistics issue with MTFs, only two of the nine MTFs we reviewed
could produce documentation of performing a product price comparison
between DLA and DVA. One of the two MTFs, which was supported by a
DVA prime vendor, had concluded that DVA prices were generally better. The
second MTF, which had formerly been supported by a DVA prime vendor, had
concluded that DLA prices were generally better based on an analysis performed
by DSCP; however, the price comparison omitted the DLA prime vendor
distribution fee.

Our price comparison of pharmaceutical products showed that DVA prices were
lower for 83 percent of 200 items reviewed. Using DLA prime vendor sales
data for the top 200 pharmaceuticals sold to DLA customers as of July 1997, we
compared DLA prices to DVA FSS contract prices (including surcharges). Our
comparison showed that DVA prices were lower for 165 of the 200 items.
Significant variances occurred only when either DLA or DVA entered into
contracts that guaranteed large sales of particular items. For 123 items, the
variances were small, less than 1 percent of the price of the item, and reflected
the higher cost DLA has of doing business.




                                    11
Acquisition Resources


      The analysis of duplicate medical and surgical supplies that DLA tasked to a
      contractor in September 1997 also compared prices. That analysis showed that
      DVA prices (with its surcharge) for medical and surgical supplies were equal to
      or lower than DLA prices (without its surcharge) for 56.8 percent of the
      comparable items.


Benefits From Single Acquisition

      DOD could better use an estimated $48 million over the FY 1999 through
      FY 2004 Future Years Defense Plan by using the acquisition services of DVA
      for those medical items that are not military unique, reducing its central
      procurement operations, and realigning acquisition personnel resources. More
      benefits could accrue from paying lower prices for medical items.

      Surcharge Savings and Personnel Realignment. Use of DVA for acquisition
      of medical items that are not unique to the military could provide DOD MTFs
      with significant savings in surcharge costs. Most of the DLA central
      procurement operations for medical items could be reduced and the acquisition
      personnel resources realigned. During FY 1997, DOD MTFs used DLA
      acquisition services to purchase about $1 billion of medical items and, at a
      minimum, were charged 1.3 percent for items obtained through prime vendors
      to pay for DLA acquisition services and other costs; higher surcharge rates were
      charged for equipment and other items not obtained through prime vendors. In
      contrast, DVA charged its customers 0.5 percent for pharmaceuticals and
      medical and surgical supplies; higher surcharge rates were charged for
      equipment but still had at least an 0.8 percent difference from what DLA
      charged.

      The difference of 0.8 percent in DLA and DVA surcharge rates for all medical
      items reflects the cost of doing business and lies, in part, in the number of
      personnel employed by each Government agency to perform acquisition
      services. DLA employed about 340 individuals at DSCP for the acquisition-
      related support of about 215,000 line items. DVA employed about
      100 individuals at its National Acquisition Center for the acquisition-related
      support of about 240,000 line items. Accordingly, much of the $46 million that
      DLA spent on labor and nonlabor expenses to support the acquisition of medical
      items by MTFs would not have been incurred by DVA, which would have been
      reflected in lower charges to DOD MTFs. Based on DVA charging its
      customers a 0.5 percent surcharge, and assuming DOD medical requirements
      will remain constant, DVA would charge DOD MTFs about $48 million less
      than DLA over the FY 1999 through FY 2004 Future Years Defense Plan
      ($1 billion times 0.8 percent [ 1.3 percent minus 0.5 percent] times 6 years).
      That $48 million would be funds from the Military Department operation and
      maintenance appropriations that could be put to better use. Additionally, the
      340 DLA positions devoted to medical item acquisition could be realigned with
      work load more consistent with the DLA combat support mission.



                                         12
                                                           Acquisition   Resources


   We recognize that DLA and DVA operations cannot be related exactly and
   many variables exist in projecting benefits from using DVA services. We also
   recognize that DVA did not contract for all the medical line items bought by
   DOD MTFs in FY 1997 and that DLA did obtain some prices that were better
   than DVA prices. However, we believe our computation of benefits is
   reasonable considering that we used the minimum difference in surcharge rates
   to compute benefits and that DVA already buys much of the medical items now
   supported centrally by DLA.

   Lower Prices.     Through consolidation of customer requirements, the MTFs
   could accrue additional benefits from lower prices for medical items.
   Generally, suppliers give better prices to customers based on market share.
   Under the DOD and DVA Shared Procurement Program (the Program) for
   medical supplies, DLA and DVA avoided dual acquisition by dividing medical
   items common to both their acquisitions programs and awarding indefinite-
   delivery contracts to single suppliers of the items. Under the Program, each
   Government agency essentially leveraged the requirements of the entire Federal
   Government to obtain better prices. Over the 13 years that the Program was in
   full operation, about $702 million was realized from reduced product costs.
   avoided inflation costs, and lowered administrative expenses. DLA and DVA
   discontinued using the Program with the advent of the Prime Vendor Program,
   which negated some of those advantages. At the height of the DOD and DVA
   Shared Procurement Program, about half the dollar value of medical items
   acquired by DOD MTFs was through a single buyer. Under the Prime Vendor
   Program, the same medical items, except for a handful of equipment-type items,
   were contracted for by both DLA and DVA. Further, manufacturers and prime
   vendors incurred additional administrative expense from dealing with two
   Government agencies. Accordingly, an opportunity exists to put millions of
   dollars to better use if DVA were to consolidate the requirements of the
   Government, including DOD, to achieve larger volume buying discounts.


Summary
   In an era of downsizing and shrinking budgets, the use of DOD acquisition
   resources to purchase commercially available medical items is unwarranted. No
   perceptible advantage was gained from DOD using scarce resources to
   perpetuate the dual acquisition of medical items when another Federal
   department could purchase medical items with no reduction in readiness and at
   less cost. Commercial suppliers of medical items found it burdensome to deal
   with multiple Government agencies for the same products and would welcome
   more streamlined procedures. Transferring the acquisition responsibility for
   commercially available medical items to DVA would also allow DOD to put
   millions of dollars to better use and would be in accord with long-standing
   studies advocating single acquisition of medical items. It would also be in the
   spirit of Public Law 105-85 and the DOD November 1997 reform initiative.




                                      13
Acquisition   Resources


Recommendation, Management Comments, and Audit
Response
       We recommend that the Under Secretary of Defense for Acquisition and
       Technology transfer acquisition responsibility to the Department of
       Veterans Affairs for all medical items except those categorized as military
       unique and realign personnel acquisition resources accordingly.

       Management      Comments. The Acting Principal Assistant Deputy Under
       Secretary of Defense (Logistics) partially concurred, and stated that, to
       eliminate avoidable overlap in Federal acquisition programs, DLA will form a
       team to work with DVA to eliminate duplication where possible. He also stated
       that DLA will initiate actions to address specific issues raised by the draft
       report. He did not agree to the recommended transfer of medical acquisition
       responsibility to DVA. Although the DVA prime vendor performed admirably
       in successfully meeting the challenges of supporting the deployment of units
       from Fort Hood to Kuwait, it cannot be concluded that DVA can assume all
       readiness functions now performed by DLA on the basis of this quite limited
       deployment situation. He added that a report on the progress of both
       negotrations with DVA and internal DLA actions will be provided by
       November 30, 1998.

       Audit Response.     Although the Acting Principal Assistant Deputy Under
       Secretary of Defense (Logistics) partially concurred with the recommendation,
       we consider his comments not fully responsive. His proposed alternatives offer
       limited prospect for eliminating duplication in acquiring medical items and
       achieving potential monetary benefits. For the past 20 years, DLA and DVA
       have had an agreement, at the request of the Office of Management and Budget,
       to eliminate duplication in acquiring medical items. Our audit showed that
       extensive duplication still exists despite the interest and actions of two, high-
       level Government working groups focusing on eliminating the duplication since
        1994. Based on the history of the two departments for resolving this issue, we
       believe that forming a DLA team to work with DVA to eliminate duplication
       “where possible” will on1 perpetuate the status quo. That is, because DVA is
       the designated manager o r the Federal Supply System for acquiring
       commercially available medical items for the Federal Government, it has no
       incentive or reason to reduce its work load. Conversely, DLA maintains an
       adamant position on readiness as an issue in the acquisition of commercially
       available medical items. We disagree with the DLA position on readiness and,
       specifically, excluded readiness functions and associated resources in our
       recommendation to transfer acquisition responsibility to DVA. The specific
       acquisition responsibility that duplicates DVA responsibility, and is clearly
       “avoidable overlap, n is that of negotiating prices for medical items and
       awarding contracts to medical manufacturers and prime vendors. We continue
       to believe there is no inherent readiness connection to providing those
       acquisition services.

       To disagree with our recommendation on the basis that DVA has limited
       experience in deployment situations is really a rebuttal against the use and
       capability of prime vendors. Prime vendors are the critical players in meeting
                                           14
                                                         Acauisition   Resources


the supply needs of MTFs during deployment, not DLA or DVA. Prime
vendors are engaged to fill peacetime needs and to surge when larger quantities
of supplies are needed for deployments.   The same prime vendor engaged by
DVA to support Fort Hood, and which has proven its ability to meet surge
requirements, is also engaged by either DVA or DLA to support 10 other DOD
MTFs. Accordingly, we request that the Acting Principal Assistant Deputy
Under Secretary of Defense (Logistics) reconsider his position on the
recommendation    and potential monetary benefits, and provide additional
comments on the final report.




                                   15
Part II - Additional Information
Appendix A. Audit Process

Scope and Methodology

    This audit is the fourth in a series of audits of the dual management of
    commercially available items by DLA and other Government organizations.
    The first three audits dealt with determining the extent and cost-effectiveness of
    DLA acquiring specific categories of items concurrent with GSA. This audit
    deals with determining the extent and cost-effectiveness of DLA acquiring
    medical items concurrent with DVA.

    To determine the cost-effectiveness of DLA acquiring medical items concurrent
    with DVA, we compared the services provided by DLA, the DOD central buyer
    of medical items, to the services provided by DVA; analyzed the added value of
    acquisition services performed by DLA; and reviewed the buying needs of
    MTFs. To gain a historical perspective on how dual purchasing occurred and
    perpetuated, we obtained and reviewed prior audit reports from 1976 to the
    present by the Inspector General, DOD, and the General Accounting Office, as
    well as directives, memorandums, and agreements from the Office of
    Management and Budget, DOD, DVA, and GSA, dated December 1960 through
    November 1997. We also interviewed responsible officials from those
    organizations.

    To compare the services provided by DLA and DVA, we analyzed each
    organization’s approach to buying medical items and product selection. For our
    analysis of buying approach, we looked at contract methods, the provisions of
    the contracts, and means of distribution. For our analysis of product selection,
    we compared the three general categories of medical items: for
    pharmaceuticals, we matched DLA and DVA databases using NDCs; for
    medical and surgical supplies, we reviewed a September 1997 contractor-
    performed analysis requested by DLA; and, for equipment, we compared our
    own judgment sample of 44 FY 1997 purchases by DLA to DVA FSS contracts.

    To analyze the added value of acquisition services performed by DLA, we
    analyzed benefits purported in the areas of readiness, customer support, and
    business practices. For readiness, we discussed the computation of mobilization
    requirements with Military Department logistics and medical officials and
    reviewed the functional requirements of the medical directorate at DSCP. For
    customer support, we compared the number of different medical items offered
    by DLA and DVA during FY 1997 to the number of different medical items
    required by nine MTFs. For business practices, we reviewed DLA and DVA
    initiatives and discussed the pros and cons of dual acquisition with DOD
    officials. We also solicited the opinions of manufacturers and distributors about
    dealing with multiple Government agencies for the same items. To determine
    how manufacturers viewed dual acquisition, we sent 38 questionnaires to the top
    sellers of medical items to the Government. The 15 manufacturers that
    responded represented about $655 million in sales to the Government during

                                        18
                                                    Appendix A. Audit Process

1996. To determine how prime vendors viewed dual acquisition, we personally
interviewed representatives of the six prime vendors that served Army, Navy.
and Air Force MTFs. We also interviewed a representative of the Health
Industry Distributors Association.

To review the buying needs of MTFs, we selected nine MTFs: three that
served the needs of the Army, three the Navy (including the Marine Corps), and
three the Air Force. They were representative of large and medium sized MTFs
within DOD. All nine were also on or near bases that would experience
different stages of mobilization. Additionally, some of the MTFs were current
or former customers of prime vendors contracted by DVA. At the MTFs, we
obtained, as available, FY 1997 logistics databases to ascertain MTF buying
habits (local or central acquisition) for each of the categories of medical items.
We also discussed with responsible officials at MTFs the performance attributes
that would make DLA or DVA the preferred source of acquisition support. For
the two most important attributes--filling operational needs and lower costs--we
compared the performance of DLA and DVA. For filling operational needs. we
obtained and reviewed reports on contractor fill rates. For lower costs, we
obtained and analyzed cost comparisons prepared by MTFs, if available. We
also reviewed a September 1997 contractor-prepared cost analysis requested by
DLA, and we performed our own analysis on a sample of the 200 highest
selling pharmaceuticals acquired by DLA. The pharmaceuticals represented
46 percent of the pharmaceuticals sold to MTFs over a 4-month period ending
September 30, 1997.

Also, to support our audit conclusion, we analyzed the benefits that would
accrue from single acquisition of medical items. To compute potential fund
reductions and personnel benefits, we obtained and compared FY 1997 funding,
surcharge rates, and staffing records for the medical directorate of DSCP and
the National Acquisition Center of DVA. To show potential discounts from
larger volume buying, we obtained and reviewed historical documents
maintained by DSCP on the DOD and DVA Shared Procurement Program for
medical items for the period June 1978 through November 1993.

Use of Computer-Processed Data. For the audit, we collected computer-
processed data from multiple sources including the Military Departments, DLA,
DVA, and Government contractors. The primary sources of computer-
processed data from DLA and DVA were the bulletin boards at DSCP and
DVA. We also obtained automated records of medical item acquisitions and the
pricing of items from prime vendor computer systems. The reliability of
computer-processed data used in our analyses of medical items was not
determined. However, the reliability of the data would not materially affect the
audit results.

Audit Type, Dates, and Standards. We performed this economy and
efficiency audit from July 1997 through February 1998 in accordance with
auditing standards issued by the Comptroller General of the United States, as
implemented by the Inspector General, DOD. Accordingly, we included tests of
management controls considered necessary.




                                   19
Appendix   A. Audit Process


      Contacts During the Audit. We visited or contacted individuals and
      organizations within the Office of Management and Budget, DOD, DVA, GSA.
      the Health Industry Distributors Association, and commercial distributors and
      manufacturers of medical items. Further details are available on request.


Management Control Program
      DOD Directive 5010.38, “Management Control Program,” August 26, 1996,
      requires DOD organizations to implement a comprehensive system of
      management controls that provides reasonable assurance that programs are
      operating as intended and to evaluate the adequacy of the controls.

      Scope of Review of Management Control Program. We reviewed the
      adequacy of DLA management controls to avoid duplication of effort in the
      acquisition of medical items. DLA management controls are operating as
      intended. Because we did not identify a material weakness, we did not assess
      management’s self-evaluation.

      Adequacy of Management Controls. DLA management controls were
      effective in that we identified no material management control weakness.




                                         20
Appendix B. Summary of Prior Coverage

   During the past 5 years, three audit reports have been issued that related to the
   dual management of items by DLA and other Government agencies. The three
   audit reports are summarized below.

   Inspector General, DOD, Report No. 98-144, “Dual Management of
   Commercially Available Items - Information and Imaging Solutions,”
   June 3, 1998. The report states that the DLA information and imaging
   solutions initiative duplicated and competed with the GSA, National Industries
   for the Blind, and other DLA procurement and supply programs. The report
   recommended that management controls be established to prevent duplication of
   DLA commercial item procurement initiatives with centralized procurement
   programs of other Government organizations. The Acting Principal Assistant
   Deputy Under Secretary of Defense (Logistics) concurred with the
   recommendation, stating that DLA will minimize the duplication of centralized
   procurement programs of Government organizations. In its contracting actions,
   DLA should be aware of potential overlaps and make a judgment in each case.
   At the direction of DLA, the Defense Industrial Supply Center canceled the
   solicitation for information and imaging solutions on March 10, 1998. The
   comments from the Acting Principal were generally responsive but we requested
   additional comments to clarify planned actions.

   Inspector General, DOD, Report No. 98-037, “Dual Management of
   Commercially Available Items--Battery, Food Service and Photographic
   Products,” December 12, 1997. The report states that DLA duplicated
   integrated materiel management of the commodities reviewed. The report
   recommended that duplication by DLA and GSA in procuring battery, food
   service, and photographic products be eliminated. It also recommended that
   DOD requisitioners be reminded that they have the authority to use sources of
   supply other than the integrated materiel manager when the other sources of
   supply offer the best value. The Deputy Under Secretary of Defense (Logistics)
   concurred with the recommendation to eliminate duplication in procuring items
   in the Federal Supply Classes included in the audit and to issue a reminder to
   the Military Departments concerning the flexibility they have in obtaining
   materiel from various sources of supply. DLA partially concurred and agreed
   that both DLA and GSA procure DLA-managed items; however, DLA was
   working to provide the customer multiple sources of supply and a range of
   services. DLA nonconcurred with the recommendation to provide a written
   analysis that identified items that GSA is best suited to procure and suggested
   that an analysis would be nonproductive. DLA concurred with the
   recommendation to provide justification for retaining the management of items
   of the Federal Supply Classes that are not predominately military or classified as
   nonessential. We believe that DLA resources should not be directed toward
   procuring common commercial items that are available to DOD customers
   through GSA.




                                       21
Appendix B. Summary of Prior Coverage


      Inspector General, DOD, Report No. 97-205, “Dual Management of
      Commercially Available Items--Defense Logistics Agency Electronic
      Catalog,” August 15, 1997. The report states that portions of the DLA
      electronic catalog program duplicated GSA supply programs, particularly the
      FSS and Advantage programs. The report recommended that duplication
      between the electronic catalog and GSA supply programs be eliminated and that
      management controls be established to prevent duplication of DLA commercial-
      item procurement initiatives with centralized procurement programs of other
      Government organizations.      DLA nonconcurred with the recommendations    and
      stated that the electronic catalog supported the National Performance Review
      and will assist DLA in reengineering its business practices to implement new
      ways and better ways of doing business in support of its customers.   DLA
      further stated that the 12- to l&month period catalog demonstration will provide
      valuable sales information to determine which commercial catalog items are
      most important in the operational support of the Armed Forces. In mediation,
      DLA agreed to do a customer survey in coordination with the Inspector
      General, DOD.




                                         22
Appendix C. Federal Supply Group 65
   Federal Supply Group 65 has 11 classes.

          Class                    Descrintion

          6505    -   drugs, biologicals, and official reagents
          6508    -   medicated cosmetics and toiletries
          6510    -   surgical dressing materials
          6515    -   medical and surgical instruments, equipment, and supplies
          6520    -   dental instruments, equipment. and supplies
          6525    -   X-ray equipment and supplies; medical, dental and
                         veterinary
          6530    -   hospital furniture, equipment, utensils, and supplies
          6532    -   hospital and surgical clothing and textile special purpose items
          6534    -   optician instruments, equipment, and supplies
          6545    -   medical sets, kits, and outfits
          6550    -   in vitro diagnostic substances, reagents. test kits, and sets




                                          23
Appendix D. Significant Initiatives to
Eliminate Duplication
    Over the past 33 years, a number of initiatives were undertaken to eliminate
    duplication among Federal Departments in centrally acquiring commercially
    available items. Following is a summary of the more significant initiatives.

            o December 1964. DOD and GSA agreed to eliminate any unnecessary
    duplication and overlap within the Government supply system and to establish a
    sound and continuing basis for assignment of responsibility for management of
    commodities determined to be susceptible to integrated management within DOD
    and those susceptible to integrated management within the Federal Government
    as a whole. DOD agreed to consider (but eventually declined) supporting all
    Federal agencies with medical items.

            o February 1971. DOD and GSA agreed to eliminate avoidable
    duplication and overlap within their respective supply systems and those of other
    Federal agencies. The agreement assigned management responsibility to GSA
    for those Federal Supply Classes or commodities commonly used by Federal
    agencies that were commercially available on the civilian economy and not
    predominately of a military nature. The agreement assigned to the Defense
    Supply Agency (now DLA) the management responsibility for those Federal
    Supply Classes or commodities commonly used in military operations or
    weapon support, irrespective of their use by civilian agencies. As an exception,
    the agreement specifically noted that notwithstanding their basic commercial
    nature, medical items were considered appropriate for management by the
    Defense Supply Agency.

            o January 1978. The Office of Management and Budget requested the
    Secretary of Defense and the Administrator of Veterans Affairs (now the
    Secretary, DVA) to develop a cooperative arrangement by which the
    responsibility for central purchase of all medical items would be divided
    between their agencies without duplication. The arrangement was to include
    provisions for the joint development and use of requirements-type contracts and
    the establishment of item entry controls to preclude duplicate purchasing of new
    items.

            o June 1978. DOD and the Veterans Administration (now DVA)
    agreed to divide the purchasing responsibility, without duplication, for medical
    items; develop an item entry control system to preclude duplicate purchasing of
    new items; establish procedures to review, simplify, and eliminate the
    multiplicity of specifications for medical items; form task groups to develop
    plans to implement the agreement; and form a Joint Steering Group to furnish
    policy guidance to the task groups. Subsequently, DOD and the Veterans
    Administration partnered a joint procurement project called “Improving
    Purchasing and Supply Management” or shared procurement. The primary
    focus of that agreement was on depot-stocked items. Each agency wrote


                                       24
                 Appendix D. Significant     Initiatives to Eliminate Duplication

non-duplicative contracts that leveraged their combined requirements for
advantageous pricing. Either agency could place orders. The program was
implemented in FY 1981.

         o January 1994. The Interagency Committee on Supply Management,
Working Group No. 2, was chartered by GSA to designate specific agency
responsibility for Government-wide   contracting authority for specific classes or
groups of items. The intent was to eliminate redundant contracting
responsibilities between agencies; to take advantage of agency expertise for
given commodities and services; and to benefit from the aggregated buying
power. The finding of the group was that DOD and DVA, the two agencies
primarily looked at, were not prepared to change their procurement processes
and authority.

        o July 1995. The Vice President requested a joint study of ways to
reinvent and integrate the DOD and DVA Health Care Systems. As a result. a
Combined Purchasing Work Group was established in April 1996 to evaluate, as
one of several administrative and operational initiatives, the use of DOD and
DVA combined purchasing power to reduce costs and improve services. The
work group believed that substantial, increased leverage might be achieved
through an integrated DOD and DVA purchasing effort.




                                    25
Appendix E. Medical Treatment
Facilities Reviewed
   During FY 1997, DOD operated 586 MTFs, comprised of 115 hospitals,
   including medical centers, and 471 clinics. The nine MTFs we selected for
   review included three MTFs each from the Army, the Navy (including the
   Marine Corps), and the Air Force. The selected MTFs purchased more than
   $274.4 million of medical items in FY 1997. The nine selected MTFs were:

         Brooke Army Medical Center, Fort Sam Houston, Texas
         Evans Army Community Hospital, Fort Carson, Colorado
         Womack Army Medical Center, Fort Bragg, North Carolina
         Naval Medical Center, Portsmouth, Virginia
         Naval Hospital, Naval Training Center, Great Lakes, Illinois
         Naval Hospital, Marine Corps Air Station, Cherry Point, North Carolina
         Keesler Medical Center, Keesler Air Force Base, Mississippi
         Wilford Hall Medical Center, Lackland Air Force Base, Texas
         Wright-Patterson Medical Center, Wright-Patterson Air Force Base,
            Ohio




                                    26
Appendix F. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
   Deputy Under Secretary of Defense (Acquisition Reform)
   Deputy Under Secretary of Defense (Logistics)
      Assistant Deputy Under Secretary of Defense (Materiel and Distribution
         Management)
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Health Affairs)
Assistant Secretary of Defense (Public Affairs)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
   Commander, Defense Supply Center Philadelphia
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                          27
                                                     Appendix F. Report Distribution


Non-Defense        Federal Organizations            and Individuals
Office of Management and Budget
General Accounting Office
   National Security and International Affairs Division
       Technical Information Center
Inspector General, General Services Administration
Inspector General, Department of Veterans Affairs


Chairman and ranking minority member of each of the following    congressional
committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, Criminal Justice,
     Committee on Government Reform and Oversight
  House Committee on National Security




                                           28
Part III - Management   Comments
Acting Principal Assistant Deputy Under
Secretary of Defense Logistics Comments



                       OFFICE      OF THE      UNDER      SECRETARY         OF   DEFENSE

                                          3000 DEFENSE  PENTAGON
                                         WASHINGTON,  DC 2030 l-3000




    MEMORANDUM              FOR DOD INSPECTOR GENERAL
                                 THROUGH: CAIR

    SUBJECT:         Draft Audit Report on Acquisition   of Medical Items (Project No. 6LD-5044.01)



            This responds    to your memorandum      of March 30. 1998. on the subject draft audit report.

    One recommendation         was addressed   to the Under Secretary of Defense for Acquisition   and

    Technology.       Our detailed comments    on that recommendation    are included in the attachment.




                                                  ames B. Emahiser
                                                        Principal Assistant Deputy
                                                   Under Secretary of Defense (Logistics)

     Attachment

     cci!Director,   DLA




                                                    30
Acting Principal Assistant Deputy Under Secretary of Defense
(Logistics) Comments



                                                                       ATTACHMENT

     “We recommend       that the Under Secretary of Defense for Acquisition and Technology
     transfer acquisition responsibility to the Department of Veterans Affairs for all medical
     items except those categorized as military unique and realign personnel acquisition
     resources accordingly.”

     This office partially concurs with the recommendation. We agree with the intent of the
     recommendation, which is to eliminate avoidable overlap in Federal acquisition programs.
     Toward that end. the Defense Logistics Agency (DLA) will form a team to work with the
     Department of Veterans Affairs (DVA) to eliminate duplication where possible. In addition,
     DLA will initiate actions internally to address specific issues raised by the draft report. For
     example, the surcharge on purchases made through DVA contracts (discussed on page 7 of the
     report) will be reviewed to ensure that charges assessed are commensurate with the level of
     service provided. Alternatives such as lower surcharges or the imposition of a flat fee in such
     cases will be considered. A report on the progress of both negotiations with DVA and internal
     DLA actions will be provided by November 30, 1998.

      We do not agree with the report’s finding on page 9 that, based on a 1996 deployment of units
      from Fort Hood to Kuwait, DVA has demonstrated the capability to provide the same acquisition
      services for medical items during a national emergency that DLA currently provides for the
      Military Departments. While the DVA prime vendor contractor performed admirably in
      successfully meeting the challenges of this particular event. we cannot conclude that DVA can
      assume all readiness functions now performed by DLA on the basis of this quite limited
      deployment situation. Therefore. we do not agree to the recommended transfer of medical
      acquisition responsibility to DVA. Rather, we propose that the actions outlined above and the
      resulting report be used to increase efftciencies while maintaining the essential medical readiness
      capability provided by DLA.




                                                     31
Audit Team Members

This report was prepared by the Readiness and Logistics Support Directorate,
Office of the Assistant Inspector General for Auditing, DOD.


Shelton R. Young
Tilghman A. Schraden
Thomas D. Kelly
Lawrence M. Kutys
Robert E. Schonewolf
Glen B. Wolff
